OIG Investigative Reports Press Release Memphis, TN., 10/25/2012 - Former Cosmetology Schools CEO Pleads Guilty in Federal Court Charges Include Failure to Return Department of Education Funds and Tax Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
Western District of Tennessee
NEWS
Former Cosmetology Schools CEO Pleads Guilty in Federal Court Charges Include Failure to Return Department of Education Funds and Tax Fraud
FOR IMMEDIATE RELEASE
October 25, 2012
Memphis, TN -- Penny Burns, 45 of Memphis, has pled guilty to a two count Information charging her with failing to return funds to the Department of Education and filing a false tax return, announced Edward L. Stanton III, United States Attorney for the Western District of Tennessee.
Burns was CEO of HD Adcock and Associates, Inc. (HDAA), a corporation of cosmetology schools operating at nine locations in Memphis, Jackson, and Nashville, Tennessee, and Charlotte, Greenville, Winston-Salem, and Durham, North Carolina. As a proprietary cosmetology school, HDAA was funded mainly through grants and loans provided, administered, or reinsured by the United States Department of Education.
According to the criminal Information and statements made by the government, Burns and employees of the school devised a scheme in which funds that were received by the schools unlawfully were not refunded to the Department of Education, per Department policy. As CEO, Burns was responsible for certifying hours for student attendance and, in fact, knowingly certified attendance for a particular student even though that student was not in attendance and had withdrawn from the school. HDAA received and failed to refund unearned federal Pell Grant disbursements that it had received for the former student.
Also, according to the Information, Burns failed to report $179,446.66 in income on her 2006 federal tax return. This unreported income was from gross receipts from Burns' business T & P Cosmetics and from additional compensation as CEO of HDAA. Burns faces a maximum penalty of four years in prison and fines of up to $255,000 when she is sentenced on January 25, 2013.
This case was investigated by the U. S. Department of Education-Office of Inspector General, Federal Bureau of Investigation, and Internal Revenue Service Criminal Investigation. Assistant United States Attorney Justin Bailey is handling the prosecution for the government.
# # # #
Top
Printable view
Last Modified: 02/28/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov